<html>
<title> - THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION'S 2021 HIGH-RISK LIST</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]






 
                     THE SPECIAL INSPECTOR GENERAL

                    FOR AFGHANISTAN RECONSTRUCTION'S

                          2021 HIGH-RISK LIST

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2021

                               __________

                            Serial No. 117-8

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                            ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
43-959 PDF             WASHINGTON : 2021                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Vacancy

                     David Rapallo, Staff Director
                Dan Rebnord, Subcommittee Staff Director
                       Elisa LaNier, Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Peter Welch, Vermont                 Glenn Grothman, Wisconsin, Ranking 
Henry C. ``Hank'' Johnson, Jr.,          Minority Member
    Georgia                          Paul A. Gosar, Arizona
Mark DeSaulnier, California          Virginia Foxx, North Carolina
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
Jackie Speier, California

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 16, 2021...................................     1

                                Witness

The Honorable John F. Sopko, Special Inspector General for 
  Afghanistan Reconstruction
Oral Statement...................................................     4

Written opening statements and statements for the witness are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below. 

  * QFR's to: Sopko; submitted by Chairman Lynch.

 Documents are available at: docs.house.gov.


                     THE SPECIAL INSPECTOR GENERAL

                    FOR AFGHANISTAN RECONSTRUCTION'S

                          2021 HIGH-RISK LIST

                              ----------                              


                        Tuesday, March 16, 2021

                   House of Representatives
                  Committee on Oversight and Reform
                          Subcommittee on National Security
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 11:08 a.m., 
via Webex, Hon. Stephen Lynch (chairman of the subcommittee) 
presiding.
    Present: Representatives Lynch, Welch, Johnson, DeSaulnier, 
Wasserman Schultz, Speier, Grothman, Higgins, and Comer.
    The committee will now come to order. Without objection, 
the chair is authorized to declare a recess of the committee at 
any time. I now recognize myself for a brief opening statement.
    Good morning, everyone. I would like to thank Special 
Inspector General for Afghanistan Reconstruction John Sopko to 
join us once again as we examine SIGAR's 2021 High-Risk List. 
This biennial report identifies key areas of Afghanistan 
reconstruction that are especially vulnerable to waste, fraud, 
abuse, and corruption.
    As underscored by our recent hearings with U.S. Special 
Representative for Afghanistan Reconciliation, Zalmay 
Khalilzad, and the co-chairs of the Afghan Study Group, the 
issue of U.S. military involvement in Afghanistan has reached a 
moment of great consequence.
    More than a year after the Trump administration and the 
Taliban signed a putative agreement for bringing peace to 
Afghanistan, insurgent violence against Afghan forces and a 
campaign of terror, including assassinations against government 
leaders, teachers, prominent women leaders, and humanitarian 
workers has continued unrelenting to the present day.
    Despite the lack of progress in deescalating Taliban 
violence, President Biden is now forced to decide whether to 
withdraw the remaining 2,500 U.S. troops and approximately 
13,500 U.S. contractors, and third-county--excuse me, third-
country contractors from Afghanistan by May 1 as envisioned by 
the Trump-Taliban agreement, we are in a very difficult 
position.
    Alternatively, with less than six weeks before the May 1 
deadline, the Biden administration can attempt to negotiate an 
extension of the February 2020 agreement or, as has been 
recently circulated, convene a coalition partner group of 
countries to engage with both the Afghan government and the 
Taliban with the goal of initiating a detailed discussion for a 
peaceful transition and reconciliation between those two sides.
    These talks are happening at a moment of great uncertainty 
for the people of Afghanistan. In his 2021 High-Risk List, 
Inspector General Sopko warns that a highly unstable security 
environment, coupled with the scheduled withdrawal of U.S. and 
international forces in the midst of a global pandemic, have 
all placed the U.S. reconstruction mission in Afghanistan, 
quote, ``at a greater risk than ever before.''
    Since 2002, the United States has spent over $88 billion or 
an estimated 62 percent of total U.S. reconstruction assistance 
on training and equipment for the Afghan National Defense and 
Security Forces.
    Yet, despite this expenditure and our best efforts to 
strengthen the Afghan government's military and police forces, 
levels of violence in Afghanistan remain unacceptably high and 
the enduring presence of al-Qaeda, the Islamic State Khorasan, 
and other terrorist organizations all continue to threaten to 
overtake the already fragile negotiations between the Afghan 
government and the Taliban.
    Nascent gains of Afghan women and girls, who have made 
historic progress in their ongoing struggle for gender equality 
throughout the past two decades, while there were zero women 
and girls attending school during the previous period of 
Taliban controlling Afghanistan, today it is estimated that 
approximately 3 million women and girls are able to safely do 
so.
    With the support of at least $787 million in U.S. direct 
assistance, Afghan women have gained expanded legal 
protections, increased access to social services, and they are 
now able to access--are now able to meaningfully participate in 
Afghan politics.
    Unfortunately, as Special Inspector General Sopko reminds 
us in his latest report that, quote, ``Afghanistan remains one 
of the most challenging places in the world to be a woman,'' 
closed quote. And again, he identifies women's rights as high 
risk, especially given the potential for Taliban's 
reintegration into Afghan civil society and government.
    So, let me be clear. The prospects for a sustainable and 
lasting peace in Afghanistan will inevitably depend on whether 
the Taliban and the Afghan government can reach a political 
agreement that respects the rights of all Afghans, including 
women and girls.
    So, I was pleased to see the Biden administration 
prioritize the rights of Afghan women and girls in the guiding 
principles document that it reportedly provided to the Afghan 
government and the Taliban in recent weeks.
    And to conclude, Inspector General Sopko writes, quote, 
``Whether or not the United States continues to withdraw its 
troops, the new administration and Congress will have to decide 
whether and to what extent reconstruction will continue,'' 
closed quote.
    So, as we work with the Biden administration to determine 
our best path forward in Afghanistan, we must inform--we must 
afford meaningful consideration to how their approach might 
impact the high-risk reconstruction areas that are identified 
in SIGAR's report.
    I look forward to today's discussion with Inspector General 
Sopko, and I now yield to the ranking member from the great 
state of Wisconsin, Mr. Grothman, for his opening statement.
    Mr. Grothman. A great state it is. Thank you very much.
    I want to thank you for holding this hearing and for Mr. 
Sopko being with us today. Your continued efforts to oversee 
billions of U.S. taxpayer dollars are commendable and 
necessary.
    This year will be the 20th anniversary of the United States 
being attacked by al-Qaeda on September 11, 2001. These 
unprecedented attacks took the lives of nearly 3,000 innocent 
Americans in New York, Pennsylvania, and at the Pentagon. Days 
later, on October 7, the United States launched Operation 
Enduring Freedom and invaded Afghanistan, leading to the 
toppling of the Taliban's regime.
    The United States has had a presence in Afghanistan ever 
since. Unfortunately, every time we need to discuss ongoing 
efforts, the same--the same issues come up.
    To date, the American taxpayer has sent $1 trillion to 
Afghanistan through supporting combat or reconstruction. In 
America's longest war, we are just starting to see the light at 
the end of the tunnel.
    President Trump reduced Americans--the American footprint 
in Afghanistan from over 100,000 during the Obama 
Administration to just a few thousand. On February 29 of last 
year, under a strong--under the strong leadership of President 
Trump, the United States signed a peace agreement to gradually 
withdraw remaining Americans from Afghanistan.
    This agreement will help create a safe and prosperous 
Afghanistan by ensuring that it will not provide safe harbor to 
terrorists.
    Now I understand it will be--and I will be the first to 
admit that just packing our bags and leaving is dangerous. That 
type of withdrawal will create a vacuum for terrorism and 
potentially set back the social and governmental gains in 
Afghanistan.
    What I do believe is that it should be our goal to reduce 
our global military footprint and bring troops home.
    Your report highlights numerous issues that we must take 
very seriously, including the corruption, the illegal 
narcotics, the increasing insecurity, and the inadequate 
oversight. Each of these issues hinders the ability to 
effectively track and manage American taxpayer funds in 
Afghanistan.
    This is an issue at the heart of this committee's 
jurisdiction. We must continue to work together to ensure that 
we know where investments go and to make sure they are spent on 
legal activities.
    I hope that will be a bipartisan goal. Once again, thank 
you, Mr. Sopko, for being here and I look forward to your 
testimony.
    I yield back.
    Mr. Lynch. The gentleman yields back.
    I will now introduce and swear in our witness.
    Today, our witness is the Honorable John F. Sopko, who is 
the undaunted Special Inspector General for Afghanistan 
reconstruction and has been a frequent flyer to this committee 
and the subcommittee, and we deeply appreciate the wonderful 
work that he and his staff have done throughout a difficult 
period in Afghanistan, including in the midst of this pandemic.
    So, Mr. Sopko, could you please raise your right hand?
    Mr. Sopko, do you swear or affirm that the testimony you 
are about to give is the truth, the whole truth, and nothing 
but the truth, so help you God?
    [Witness is sworn.]
    Mr. Lynch. Let the record show that the witness has 
answered in the affirmative. Thank you, and without objection, 
your written statement will be made part of the record as will 
your report--your High-Risk Report.
    With that, Inspector General Sopko, you are now recognized 
to give an oral presentation of your testimony for five 
minutes.

  STATEMENT OF THE HONORABLE JOHN F. SOPKO, SPECIAL INSPECTOR 
             GENERAL FOR AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you very much, and good morning, Chairman 
Lynch, Ranking Member Grothman, and Congressman Welch.
    Thank you for inviting me to discuss SIGAR's new High-Risk 
List for Congress and the administration. This report 
identifies eight key threats to our $143 billion reconstruction 
effort that, since 2002, has been an essential part of the U.S. 
strategy to return peace and stability to Afghanistan.
    Today's report comes at an opportune time, as the Biden 
administration is deciding on the future of both our counter-
terrorism and reconstruction missions in Afghanistan.
    The May 1 deadline to withdraw U.S. forces and other 
personnel is a mere 46 days away. Whether or not the U.S. 
withdraws its troops, the new administration and Congress will 
need to decide and whether and to what extent reconstruction 
will continue.
    It could be a very critical decision, for we must remember 
that it was not the withdrawal of Soviet troops in 1989 but the 
withdrawal of Soviet rubles that led to the collapse of the 
Afghan regime in 1992.
    But let me be clear before we go any further. As an 
inspector general, neither I nor SIGAR nor this High-Risk List 
takes a position on the future presence of U.S. forces in 
Afghanistan.
    That is beyond what an inspector general should discuss. 
That is policy and that is the purview of the policymakers in 
Congress and the Biden administration to determine.
    However, I believe most would agree with our report that 
achieving our counter-terrorism and reconstruction objectives 
depends on a strong, stable, democratic, and self-reliant 
Afghanistan.
    Unfortunately, as our report discusses in great detail, 
Afghanistan is far from that reality and may be fighting for 
its very survival.
    Taliban attacks and assassinations increased since the 
U.S.-Taliban agreement was signed last February. Afghan 
security forces are nowhere near achieving self-sufficiency, as 
they cannot maintain their equipment, manage their supply 
chains, or train new soldiers, pilots, and policemen without 
the 13,000 DOD contractors that, under the terms of the same 
February agreement, may be obliged to leave Afghanistan on May 
1 also.
    Highlighting the critical nature of that support, DOD 
estimates that no Afghan airframe can maintain combat 
effectiveness for more than a few months if contractor support 
is withdrawn.
    Likewise, Afghanistan is heavily dependent on foreign 
financial assistance. Roughly, 80 percent of Afghanistan's 
public expenditures have to be covered by international donors, 
including the U.S. taxpayer.
    Yet, as we report, because international donors have, 
largely, lacked the will to impose and, more importantly, 
enforce concrete conditions on their assistance, the Afghan 
government that has made little if any progress in combating 
corruption or illicit narcotics production, both of which 
provide critical oxygen to the insurgency.
    In that regard, we believe a key opportunity was missed at 
last November's international donor pledging conference for 
Afghanistan, where donor nations, including the United States, 
failed to outline specific financial and other consequences 
that the Afghan government would face if they failed to meet 
its anti-corruption and counter-narcotics commitments.
    If, at that pivotal time, just a few months ago, donors did 
not have either the bureaucratic or political will to place 
hard concrete conditions on future Afghan assistance, we must 
ask the critical question, when will we, and this is 
particularly troubling now, as many believe we must use 
continued financial assistance for Afghanistan as leverage to 
ensure that the Afghan government does the right thing on a 
number of issues, including protecting the rights of Afghan 
women and girls.
    So, in conclusion, as our report indicates, if 
conditionality isn't critical for future assistance, then we 
and other donors have to do better than we have done over the 
last 19 years in truly enforcing concrete conditions on any 
post-peace Afghan government, especially if it includes the 
Taliban.
    Thank you very much, and I look forward to your questions.
    Mr. Lynch. Thank you very much, Inspector General Sopko, 
and again, my thanks to your staff for the great work that they 
continue to do every day in Afghanistan.
    The chair now yields himself five minutes for questions. I 
guess, you know, the $64,000 question is the administration, 
the Biden administration, is in a position now where they have 
to, because of the preexisting agreement between the Trump 
administration and the Taliban, they have got to decide whether 
they pull the plug on May 1.
    So, let us talk about that. Based on your time in 
Afghanistan and the review of your incredible staff, what 
happens? What does it look like?
    Tell me what to expect if the administration, indeed, 
pulled the remaining 2,500 troops out, but more importantly, as 
you pointed out, pulled the thousands and thousands of 
contractors out?
    So, can I ask you about that? Can you tell me what the 
makeup of the contractor population is there? I know we have 
some home country nationals. There is a small percentage of 
those, I think, from Afghanistan. Then there are third-country 
nationals. Then there are U.S. contractors.
    So, tell me about the makeup of that contractor force, and 
again, the main question is, what happens on May 1 if we pull 
the plug and come out?
    Mr. Sopko. Thank you, sir. It is a--that is an important 
question.
    As I indicated, it is about 18,000 contractors all 
together--DOD contractors. Thirteen thousand of them would, 
pursuant to the February agreement, have to leave with our 
troops, and that breaks down to about 6,000 U.S. citizens and 
about 7,000 or more who are non-Afghan but third-party 
nationals from other countries.
    What would happen if--if the troops, our troops, leave that 
is going to hurt the Afghan government in its fight against--
and, again, if there is no peace agreement. If there is a peace 
agreement, this changes.
    But if there is no peace agreement on May 1, the Afghan 
government will probably lose the capability of flying any of 
its aircraft within months--few months, and to be quite blunt, 
it probably would face collapse, especially if we also withdraw 
the funding.
    Remember, 80 percent of that government comes from the 
United States and our donors, including salaries for troops, 
money to buy fuel, money to buy bullets, et cetera. So, if that 
happens, if you combine those three, it is a disaster for 
Afghanistan.
    Mr. Lynch. OK. Let me ask you then, is there a--so thus 
far, there is--apart from this agreement, there is no 
transition agreement in terms of what the--what the level of 
participation or the nature of participation on the part of the 
Taliban will be post May 1. Is that--is that correct?
    Mr. Sopko. As far as we know, there is nothing in the--they 
still have to negotiate it. So, we don't know what the role of 
the Taliban will be, if any. That has to be agreed to by the 
Afghan government and the Taliban.
    Mr. Lynch. But based on the--based on the campaign of 
assassinations that we have seen, mainly, they have gone after 
a government officials, a lot of women in the press and women 
in government. We have seen attacks on humanitarian groups as 
well.
    What is your--what is your assessment in terms of the 
stability of the government if there is an entree on the part 
of the Taliban coming into--coming into the government? They 
seem to expect a role that they will play after May 1.
    Mr. Sopko. I definitely think they expect a role to play in 
the new government, and while the negotiations have been going 
on, they have been attacking very aggressively Afghan soldiers 
and police, in particular, in certain geographical zones. They 
are trying to take back more of Afghanistan, probably for 
negotiating purposes. So, that will continue.
    Mr. Lynch. And if we unilaterally decide that we are going 
to extend this, do you have a sense of what the response of the 
Taliban might be, going forward?
    Mr. Sopko. Public statements that have been made have been 
diverse. On the one hand, the Taliban have indicated they are 
looking at this proposal. We don't know all the exact 
particulars of the proposal that the Biden administration has 
made.
    But at the other hand, some of their spokesmen have talked 
about they want us out May 1 and the deal is off if we don't 
leave by May 1.
    So, I can't give you a definite answer on that, Mr. 
Chairman.
    Mr. Lynch. OK. My time has expired.
    The chair now recognizes the gentleman from Wisconsin, the 
ranking member, Mr. Grothman, for five minutes for his 
questions.
    Mr. Grothman. Sure, a few questions.
    First of all, is the Taliban a monolith? Do you feel that 
when we negotiate them, they can even make an agreement stick, 
given what you have just told us about, you know, attacks on 
humanitarian groups, attacks on women, what have you?
    Mr. Sopko. That is a really good question, and it is mixed. 
There was some indication during the early part of the 
negotiation for withdrawal, that the Taliban issued an order 
not to fight and it kind of held all over the country.
    But I--what we are told and what our experts say it is 
still not a monolithic organization and you got individual 
groups that will go off and frolic
    [inaudible.] at will.
    So I would say, again, we haven't done an audit, sir. But I 
would say it is not monolithic and I don't know if they can 
control all their troops.
    Mr. Grothman. OK. To what degree are Russia and Pakistan 
and Iran--I guess those are the big four poking around 
Afghanistan right now--if we would leave to what degree with 
those four kinds of put Afghanistan in their sphere of 
influence?
    Mr. Sopko. Well, again, we haven't done an audit, per se, 
but all of those countries you mentioned are playing a role and 
have played a role historically, either funding insurgents or 
funding warlords or, you know, corrupting officials in 
Afghanistan.
    I would only assume that they would play a role, going 
forward, with a post-peace government. But I can't tell you for 
sure what that role will be.
    They all have an interest in Afghanistan for their own--
remember, they surround Afghanistan. So, they have that 
interest. And, particularly, Iran has a lot of influence to the 
west because of economic reasons.
    Mr. Grothman. OK.
    Mr. Sopko. The west part of Afghanistan.
    Mr. Grothman. Which country, economically or otherwise, is 
it Pakistan or Iran--I am assuming it is Pakistan, but I don't 
know--right now, economically and otherwise, kind of is more 
involved in Iran? And are those the two major countries? I am 
assuming they are. They have the biggest borders.
    Mr. Sopko. I am sorry, Mr. Grothman. I lost your beginning. 
Actually, I am losing connectivity right now.
    Mr. Grothman. OK. I am assuming--yes, I am assuming the two 
countries that have the biggest current influence in 
Afghanistan, because they have such long borders, are Iran and 
Pakistan.
    And I wondered which one of those two right now has bigger 
influence, you know, more economic relationship, more cultural 
relationship, what have you. And if we would leave, therefore, 
which one of those would kind of be more predisposed to kind of 
put Afghanistan in their sphere of influence?
    Mr. Sopko. It is hard for me to say. I would think 
Pakistan. I would probably answer Pakistan because of the 
border, because of their long ties with Afghanistan.
    But as I said before, Iran has a very strong influence, 
particularly in the area around Herat and to the west of the 
country. But it is a close call, sir. Those are the two major 
countries.
    Mr. Grothman. OK. Can you explain to us this ghost soldier 
problem and to what degree it still is a problem?
    Mr. Sopko. Again, I apologize, sir. You broke up on the----
    Mr. Grothman. I am sorry. Ghost soldiers, that phrase. We 
have heard it before. Is it still a problem? To what degree is 
it a problem?
    Mr. Sopko. We think it is still a major problem. That is 
the reporting we are getting from people we know in the Afghan 
government and Afghan civil society.
    We haven't been able to document it because we haven't been 
able to get out and check on it. The U.S. Government, I think, 
considers this a problem because after spending millions of 
dollars to develop a personnel system which could track the 
soldiers, they, basically, said the Afghan government can't run 
it on their own.
    So, it is still a problem. The officials steal salaries, 
they don't pay the salaries of soldiers and police, and it is 
pretty widespread.
    Mr. Grothman. OK. I will give you one more question because 
I am sure I am near my five minutes.
    One of the things that bothers me about the ghost soldiers, 
in addition to the money you are spending, goes to the degree 
to which there is pride in such a thing as an Afghan government 
and whether their soldiers feel there is something worth 
fighting for there.
    And that is the problem we have all over the region because 
I am sure at one time the very borders of Afghanistan were 
probably drawn by the British or somebody that didn't--you 
know, didn't necessarily represent an ethnic group like, say, a 
France or a more traditional country.
    Do you believe there is such a thing as a pride in an 
Afghan country, that they are capable of defending or securing 
their current borders?
    Is there that pride in Afghanistan or is it just a bunch of 
people who have to--happened to grow up there and collect a 
paycheck there but, really, I guess, to what degree is there 
Afghan pride? Will they protect Afghanistan or protect those 
borders?
    Mr. Sopko. There is Afghan pride and I don't want to 
denigrate the Afghan fighting spirit. The Afghans have fought 
and will continue to fight.
    The problem is pride in what we call the Afghanistan or the 
central government, and that is where you have got a morale 
issue and that is why your point about ghost soldiers and 
salaries.
    If you don't pay the soldier, if you don't pay the widows 
and orphans that the soldiers and policemen killed, and if I am 
an Afghan soldier and I see my money going to some warlord or 
some captain or colonel or general who never shows up but gets 
part of my salary, or as bad as it was down south, where the 
Afghan general was, basically, stealing the food that was paid 
for by the government and forcing the soldiers to buy their own 
food, then you lose morale.
    No, the Afghans will fight. The question is will they fight 
for a corrupt incompetent government, and that is the big 
question. But there is a will to fight and there are a lot of 
honest brave Afghans who have fought for their country.
    But you just--we don't know on morale. We don't know 
because we are not collecting the data. We don't have the 
people to collect the data on what regions are controlled by 
the Taliban or other terrorist groups, or what districts are 
controlled.
    I think that is something that Chairman Lynch and a number 
of you inserted, finally, into, I think, last year's either 
defense bill or the appropriations bill that we are now going 
to start collecting that data so we at least know and you in 
Congress know where we stand in this fight against the 
terrorists.
    Mr. Lynch. The gentleman's time has now expired.
    The chair now recognizes the gentleman from Vermont, Mr. 
Welch, for five minutes.
    Mr. Welch. Thank you very much, Mr. Chairman and Mr. 
Grothman.
    And Mr.--John, Mr. Sopko--what am I doing calling you John 
at the hearing, but I will.
    You know, I really appreciate--we all do--the work you have 
done over the years. It has been steady and really something we 
can rely on.
    We are moving into this new phase where whether the Biden 
administration follows through on the date set by the Trump 
administration or tries to renegotiate, we are leaving in that 
is pretty clear. It is just a question of when.
    And, Mr. Sopko, you have documented how corruption is 
endemic and according to your 2021 High-Risk Report, corruption 
threatens all U.S. and international efforts in Afghanistan.
    And just succinctly, because I want to follow with other 
questions, can you describe that threat of corruption to the 
peace and stability of the future Afghan state post-U.S. 
occupation?
    Mr. Sopko. Well, I think corruption is the threat, just 
like I talked about before. It not only is a loss of our 
money--you know, the dollar we give for reconstruction, if it 
is diverted, it doesn't help the reconstruction. Doesn't buy 
the boots, doesn't help the government build the road.
    But it also is fueling the insurgency, to some extent, 
because the Taliban and other terrorist groups point to it and 
point to the warlords and point to the corrupt officials and 
point to the fact that there is immunity.
    We basically--there is, basically, immunity. If you are a 
high official in Afghanistan and you are corrupt, you ain't 
going to jail, and that is what our, basically, said.
    Mr. Welch. Let me followup on that. You know, you document 
how the Afghan government makes paper reforms such as drafting 
regulations, but they don't take tangible actions. You have 
been on this for a number of years. Has that changed up until 
this point?
    Mr. Sopko. Not really, and we will be issuing another 
report next month, pursuant to requests in Congress, and we 
document it. It is, basically, they are very good at attending 
meetings, writing legislation, or writing policies or creating 
organizations but not too good at actually catching crooks and 
sending them to jail if they are important Afghans.
    Mr. Welch. So, it just continues--it just continues the 
cycle of eroding trust and strengthening the Taliban. You have 
said and you have been saying this for all your time, Mr. 
Sopko, what conditions--you have said, A, that we need 
conditions.
    But, B, now that we are moving in this new phase, can you 
specify the types of conditions you think would be essential to 
giving us confidence and, frankly, the Afghan people confidence 
that the money was being used for their benefit, not for the 
private profit of the government officials?
    Mr. Sopko. There are many conditions and it is really based 
upon understanding who you are dealing with in the Afghan 
government and what do they want. Right now, we know the 
current government wants elections in September.
    I am not saying we should or shouldn't have elections in 
September. OK. What do we get in return for that? We know a lot 
of Afghan officials want to send their kids to school in the 
West. They need visas.
    What are we getting for that? Those are the type of 
conditions. That is called smart conditionality. There was a 
general in Afghanistan who once talked to me about this, 
General Semonite, who was head of CSTCA.
    It was only about five years ago. He was the first guy to 
talk about conditionality in Afghanistan. So, it is 
understanding. It is like if we build a new office. This was 
one of the examples I gave to you.
    I mean, the head of MOD, I believe, wanted a fancy new 
office and we really rebuilt an entire office for him. What did 
we get out of it? Did we get a--it is a quid pro quo. So, it is 
understanding what the Afghan officials, corrupt or otherwise, 
want, and then condition on it.
    You know, it is very interesting. You had a hearing last 
week, I believe, with the Afghan Study Group, and if you look 
at their testimony, what they are talking about they, 
basically, talk about smart conditionality.
    Mr. Welch. Right. Right.
    Mr. Sopko. And they talk about some examples. There are 
many things we can do but we haven't done it. I mean, it is so 
frustrating. I feel like it is Groundhog Day in that movie.
    Mr. Welch. Right.
    Mr. Sopko. I keep coming back and repeating the same thing, 
and all of our Ambassadors say, oh, it is horrible about 
corruption and narcotics. But they don't put any conditions.
    Mr. Welch. Right.
    Mr. Sopko. They talk about conditions.
    Mr. Welch. My time is--my time is up.
    Mr. Sopko. Do you realize from the donor--I am sorry. I 
apologize. You can see I am really upset about that. We don't 
follow through with smart conditionality.
    Mr. Welch. Well, I am upset too, because you have been 
providing the roadmap for years and we haven't followed it, to 
our peril.
    Thank you very much, and I yield back, Mr. Chairman.
    Mr. Lynch. The gentleman yields back.
    The chair now recognizes the gentleman from Louisiana, Mr. 
Higgins, for five minutes.
    Mr. Higgins. Thank you, Mr. Chairman. Thank you for having 
this hearing today.
    Since 2008, Congress has appropriated about $110 billion 
for humanitarian, security, and reconstruction assistance to 
Afghanistan. Yet, over the last 20 years, from my perspective 
and most of my constituents, little progress has been made and 
the Nation is still heavily dependent on donor and foreign aid.
    We have had meetings and discussions about this for four 
years now, my office with boots on the ground in Afghanistan, 
and men and women of just distinguished accomplishment that 
have their background of expertise in the region.
    And, personally, I am of the opinion that we have--we have 
done enough. I mean, if we--if we haven't taught the Afghan 
people how to care for themselves in 20 years, you know, what 
makes us think we are going to do it in two more.
    And I asked--I asked a troop commander last week, why would 
we have boots on the ground out there? We have naval response, 
rapid deployment forces in the region. Why would we need boots 
on the ground?
    He said, well, you need to be able to respond very, very 
quickly to what is happening. Well, what about the guys that we 
trained for 20 years? They live there. They are on the ground. 
They can respond immediately.
    And, again, if we haven't trained them in 20 years, what 
makes us think we are going to train them in two?
    As the Biden administration moves forward with peace talks 
with the Taliban and the Afghan government, I think we should 
be focused on terrorist activity.
    True success in Afghanistan will only be achieved if we 
build upon the progress by the Trump administration, promote a 
free and self-sustaining direction for the region and 
protection for our allies like Israel.
    Mr. Sopko, as stated in your report and supported by DOD, 
pervasive corruption throughout the Afghan government 
undermines its own legitimacy.
    Please, based upon--my opening remarks was, granted, that 
is my opinion. That is not the opinion of this committee. That 
is my personal observation.
    But many, many Americans feel the same way. With pervasive 
corruption in the Afghan government and we have been there for 
20 years, we have invested billions upon billions of dollars of 
American treasure, seems we have gotten nothing out of it, 
please explain to the American people why we should remain in 
Afghanistan and what our focus should be.
    I will give you my remaining time so you have over two 
minutes. Tell us why we need to be there.
    Mr. Sopko. Well, sir, I appreciate your question and I 
appreciate your concerns, and that is something that I think 
that every administration has faced.
    I don't argue either which way. I am really agnostic on 
this as an inspector general. I don't do--you got the tough 
decision, Congressman----
    Mr. Higgins. Right.
    Mr. Sopko [continuing]. and the administration. Whether it 
was the Trump administration, Biden administration, Obama 
Administration, it is a tough decision because these are the 
issues you face.
    Let me just throw out some things that you may want to 
consider. Again, I am not a proponent for staying or going. I 
am just telling you what is going to happen, you know, and what 
has happened and what we can learn from that.
    Mr. Higgins. Fair enough.
    Mr. Sopko. There are some diplomatic reasons we should be 
there, and I think somebody from State Department can explain 
that better than me. But, you know, are we going to look like 
we cut and run?
    Now, people can say, hey, you have been there 20 years. You 
didn't cut and run for 20 years. Why would you now? But that is 
something to consider.
    Do some of our allies in the region think that if you 
leave, it is destabilized? Another question that can be 
raised--and again, you need to talk to the counter-terrorism 
experts, not me.
    We don't do counter-terrorism. We do reconstruction. But it 
could be that having boots on the ground actually is helpful 
and being able to work with them is helpful.
    The other thing is we have invested a lot of money in 
reconstruction and rebuilding. If we leave immediately, we lose 
everything. Not only are women and girls but a lot of people 
who have supported us in jeopardy.
    The other thing is we have brought NATO with us and we have 
NATO troops working with us. Did they buy a bill of goods with 
us? Do they feel like they have been cheated out of this? Why 
did they spend their time?
    So, those are some of the things you have to consider. A 
destabilized Afghanistan could be a problem for us in the 
future. But again, I don't--these are arguments that can be 
made probably by better people than me. Again, I just do 
process. I tell you what have we gotten so far.
    So, I don't know if that answers the question, but I am not 
a good advocate. You need to talk to somebody at state or AID 
or DOD on answering those questions.
    Mr. Higgins. Yes, sir, and I do speak to those gentlemen 
consistently. Thank you for your answer. We appreciate your 
opinion as a solid, a wise man with a great deal of experience 
in the region.
    Mr. Chairman, my time has expired and I yield.
    Mr. Lynch. The gentleman yields back.
    The chair now recognizes the gentleman from California by 
way of Massachusetts, Mr. DeSaulnier, for five minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman, for recognizing 
that I was from the correct western state. I appreciate the 
hearing.
    Mr. Sopko, it is hard not to watch you and feel very 
sensitive to your frustration, as others have said. So, our 
options are we spent a lot of time with the study group talking 
about what leverage we had vis-`-vis the Taliban and the May 
deadline.
    My question is what kind of leverage, given our history and 
the history of the British and Russians and other countries in 
Afghanistan in history with the--with the Afghan government?
    If we do say--if we make it conditional that this funding 
continues, doesn't seem, based on history, that is at least a 
good faith last effort.
    But do you expect that they would actually perform if we 
had the right conditionality if we stayed--the Afghan 
government, or will they continue to be corrupt?
    Mr. Sopko. That is the $60,000--probably $6 million or $6 
billion question. I don't know. We do know right now it is an 
opportune time.
    As pessimistic as I sound, the opportune time is everybody 
who is a player in Afghanistan realizes they need foreign 
assistance. OK. You may want to say we got them over the 
barrel. You know, 80 percent of that government is paid for by 
the American taxpayer, British taxpayer, et cetera, et cetera.
    So, if not now, when can we try real conditionality? So, we 
got that out. We know the Taliban want foreign assistance.
    Now, the Taliban wants some other things, too. They want to 
be recognized independent--as a--internationally. They want to 
be removed from all the terrorist designations.
    So, there is a number of things that they want, and they 
also want a piece of the government. If we can come up with 
proper conditions and if we enforce them and if we are willing 
to say, we lead, I mean, all of us have dealt with conditions 
on employment or even with our kids. You have to be willing to 
say no, and up to now we have failed to do that time and time 
again.
    So, the answer is, I don't know. But this is a great 
opportunity to try true conditionality. But you need people who 
really want to enforce it.
    Mr. DeSaulnier. So, we are playing with people who played 
this diplomatic poker with the West for multiple generations, 
centuries. So, let us go to plan B. We try. They fail. Still 
corruption.
    We leave, and as to who has got who over the barrel, I 
guess I would respectfully, maybe skeptically, disagree. They 
know it is going to be destabilizing. They know there is 
potential al-Qaeda starting again.
    Is that in our best interest? We have stayed in Europe--I 
know, a different situation--since World War II. Is our plan B 
being we have got to stay there in some form or function in 
terms of our best calculus on what protects the American public 
and the international order?
    So we try. If we fail, are we stuck with, basically--and 
should we--maybe we should pay the--give the extortion or 
support directly to the warlords, which we have tried in the 
past, rather to just bypass the government.
    So, I am sort of looking at give it the best shot, but most 
likely, given history, we are going to be stuck with this other 
situation.
    And then last, there was some hope in our discussion with 
the study group that, demographically, younger people, because 
of the effects of globalization and our influence for the last 
20 years, might be more open to asserting themselves to really 
establish a government that is functional.
    So as I look at it, that sort of seems like the probable 
playing out, based on the study group and your great work.
    Mr. Sopko. You may be right, sir. I don't know. I mean, 
the--I do agree with you about the youth of Afghanistan. The 
young have been exposed to us, good or bad. Particularly in the 
cities, a lot of them have been exposed to democracy, to an 
attempt at rule of law, to a free and open press. A lot of 
women and girls have been removed from the shackles of the 4th 
century and have tasted freedom.
    I don't know if that is going to be enough. I don't have an 
answer on that. We haven't done work on it. And again, just let 
me apologize if I defer.
    I mean, as an inspector general, I like to speak for either 
an audit or an inspection or a report. You are asking--a lot of 
these are personal questions. One member has asked me to, 
basically become diplomatic and make an argument on behalf of 
the State Department or USAID. I am not the witness for that.
    But this is the kind of discussion that I assume is 
happening right now in the embassy and in the White House, and 
this is the kind of discussion I think is necessary for 
Congress to have.
    Mr. DeSaulnier. Thank you. I appreciate it.
    I will yield back to the pride of South Boston, Mr. 
Chairman.
    Mr. Lynch. You are very kind. Very kind.
    The chair now recognizes the full committee ranking member, 
the gentleman from Kentucky, Mr. Comer, for five minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    And I want to try to get as many questions in as I can in a 
brief amount of time.
    Let us start with corruption. Does Afghanistan still have 
serious issues with corruption?
    Mr. Sopko. Yes.
    Mr. Comer. Does this corruption threaten U.S. construction 
efforts--reconstruction efforts?
    Mr. Sopko. Yes. Yes.
    Mr. Comer. Congress directed you to evaluate the Afghan 
anti-corruption strategy. Was this strategy sufficient?
    Mr. Sopko. No.
    Mr. Comer. Your report also says that current oversight 
mechanisms are inadequate. How much U.S. money has already 
spent on Afghan reconstruction?
    Mr. Sopko. The total amount on reconstruction is $143.27 
billion.
    Mr. Comer. Do we know for certain that all the money of 
that $143 billion actually made it to where it was intended to 
go in Afghanistan?
    Mr. Sopko. Oh, we know quite a bit of it didn't end up 
there. We actually did a report for a number of Congressmen, 
including Congressman Welch, who asked us to look at how much 
was wasted, stolen, and whatever, and I think we reported back 
in July 2018 just looking at what we looked at, and that was 
about one-third of the money that we looked at that our agency 
did was wasted, stolen, or didn't accomplish anything.
    Mr. Comer. Is it possible that some of this money made it 
into terror groups?
    Mr. Sopko. Of course. Yes, of course.
    Mr. Comer. What about the illicit drug trade?
    Mr. Sopko. Oh, that supports the Taliban and supports 
corruption. That is what I said. Corruption and narcotics is 
the oxygen that keeps the terrorist groups alive in 
Afghanistan, and many Taliban are working in the narcotics 
fields.
    Mr. Comer. So, do you share my concern that U.S. taxpayer 
dollars are fronting billions of dollars to a corrupt country 
with no truly effective means of tracking it?
    Mr. Sopko. Yes, we are very concerned about that, and if 
you continue, that is why we say one of the risks is oversight. 
You got to have some oversight. Otherwise, you may as well just 
burn the money in Massoud Circle.
    Mr. Comer. Well, I understand the difficulty of tracking 
money in a foreign country. The purpose of this committee, the 
Oversight Committee, is to ensure that taxpayer funds are spent 
efficiently and effectively.
    To do this, we have to know where the money is going. I 
appreciate your work on the issue. But just for the record, and 
I have said this each of the four years I have been in 
Congress, I really don't see a viable long-term strategy for 
the United States in Afghanistan and I strongly support 
withdrawing the troops.
    And I understand the problems that that country is going to 
have when the--when troops are gone. But, you know, the 
American taxpayers don't want to spend any more money in 
Afghanistan. This has been the sentiment from a majority of my 
constituents and I think a majority of Americans for many, 
many, many years now.
    But I appreciate your work. Look forward to working with 
you in the future, and please let us know what we can do on 
this committee to be of assistance to you in tracking our U.S. 
taxpayer dollars.
    Mr. Sopko. Thank you.
    Mr. Lynch. The gentleman yields.
    The chair now recognizes the gentlewoman from Florida, Ms. 
Wasserman Schultz, for five minutes.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    In addition to reports like the biennial High-Risk List and 
the Lessons Learned program, SIGAR regularly sheds light on 
areas where our reconstruction efforts in Afghanistan have, 
unfortunately, come up short.
    For instance, Mr. Sopko, in September 2019, Chairman Lynch 
asked you to review facilities in Afghanistan that were 
constructed or financed by American taxpayers. Earlier this 
month, you released the final results of that review and you 
reported that billions of dollars that Congress had 
appropriated for reconstruction programs in Afghanistan went to 
facilities that have been underutilized and, in some cases, 
went completely unused or have deteriorated beyond repair.
    For example, during followup inspections, SIGAR found that 
vehicle scanners at two border crossing points, purchased by 
DOD for $2.8 million, was sitting unused. One scanner was, 
quote, ``riddled with bullet holes'' and a rocket had rendered 
it inoperable.
    According to Afghan government officials, no one has been 
made responsible for fixing the scanners or even knew how to do 
that.
    Mr. Sopko, as a senior member of the House Appropriations 
Committee, these reports of wasteful spending cause me great 
concern, and we have several other members on Appropriations on 
this--on this committee.
    Can you provide some other examples of assets that SIGAR 
recently inspected that have gone unused or underutilized?
    Mr. Sopko. Well, I mean, one example is I believe we 
identified a number of dormitories for Afghan female soldiers 
or police that are empty, basically, because the Afghan 
government has not recruited nor are they interested in 
recruiting the women.
    One example which I highlighted just less than a month ago 
was that we gave money-counting machines and bought them for 
the Afghan Ministry of Interior to put at the Karzai 
International Airport to count money, and they still haven't 
even been plugged in.
    So this is years ago. This is the second time we reported 
on it. So, we do no checking of cash going--we, I mean, the 
Afghan government doesn't at the VIP and VVIP lounges at the 
airport.
    So, there are a number of examples like that, ma'am, that 
just stuff is not being used.
    Ms. Wasserman Schultz. OK. Well, that is pretty troubling, 
and your report indicates that the most common reason these 
facilities and assets were not used or maintained was that the 
beneficiary, quote, ``lacked the resources or capabilities to 
do so.''
    What does that tell you about the reconstruction projects 
the U.S. Government has funded and then turned over to the 
Afghan government?
    Does it suggest that U.S. agencies didn't plan 
appropriately for what the Afghan government needed or could 
effectively use? And what can Congress do to help ensure that 
any future funding appropriated for reconstruction projects is 
spent efficiently and effectively?
    Mr. Sopko. I think you hit it on the nail. We are the 
problem in those situations because we don't require our 
agencies to look at sustainability.
    You know, this is something we also raised--I think I 
raised within a year of coming on the job about a decade ago, 
that we should require, before any capital asset is provided, 
that the Afghan government even knows it, wants it, says they 
will use it, and they have the resources to keep using it. And 
those are the types of things we need to push and I think 
Congress needs to push.
    And not just in Afghanistan. I would think the problem we 
have identified is a problem worldwide, and if we want to get a 
bigger bang for development budget we should require that 
outside of Afghanistan, too.
    Ms. Wasserman Schultz. Mr. Chairman, it feels like we are 
lighting money on fire. This is the classic definition of 
insanity.
    We are appropriating funds for things that no one is 
checking to see whether the Afghan government will actually 
need or use them, has the ability to sustain them, or maintain 
their upkeep, and, like, it just feels like a black hole.
    And I appreciate the opportunity to ask this question 
because that is what the Oversight Committee is for. Hopefully, 
we are going to be able to see our colleagues, and I can 
certainly followup as an appropriator, to make sure that we 
don't continue this vicious cycle of appropriating funds for 
things that go unused or break and are never fixed, or never 
wanted.
    So, I appreciate the opportunity to ask those questions and 
really, Mr. Sopko, thanks to--thanks to you and your staff for 
doing the important work you are doing.
    I yield.
    Mr. Sopko. Congresswoman, could I just add one thing that 
you may be interested in and the appropriators should?
    Mr. Lynch. Very briefly. Very briefly. Very briefly.
    Mr. Sopko. I know, right. It is a problem with me. I talk 
too much. We are releasing a Lessons Learned report in another 
two months on monitoring and evaluation and what lessons have 
we learned, and I think you, as an appropriator, and, I think, 
authorizers would be very interested when that report comes 
out. We are happy to brief you when that report comes out.
    Ms. Wasserman Schultz. Thank you. I look forward to that.
    Thank you so much, Mr. Chairman. I yield back.
    Mr. Lynch. The gentlelady yields, and we do appreciate the 
direction and the spirit of your questions. And I think that 
the new administration, as did the previous administration, 
struggles with that, that whole problem.
    So, that is the heart of this hearing.
    The chair now recognizes the gentlelady from California, 
Ms. Speier, for five minutes.
    Ms. Speier. Thank you, Mr. Chairman.
    Inspector General Sopko, once again, I would just like to 
sing your praises. You have been, really, an important voice 
for us to evaluate how our money is being spent and how it has 
been spent poorly.
    Let me ask you a couple of questions on the outset. You 
said there are 18,000 contractors from the United States in 
Afghanistan, correct?
    Mr. Sopko. Well, 18,000 defense contractors. Only about 
7,000--excuse me, 13,000 are U.S.
    Ms. Speier. Thirteen thousand are U.S.?
    Mr. Sopko. Yes, ma'am.
    Ms. Speier. And is it your expectation that if our service 
members leave, we are still going to have 13,000 contractors 
there?
    Mr. Sopko. Pursuant to the agreement, as far as we know, 
they have to leave on May 1 also. So, the only ones left would 
be Afghan nationals. So, the 13,000 U.S. would leave as well as 
the--I am sorry, 6,000 U.S. and 7,000 third-country nationals, 
so 13,000 total.
    Ms. Speier. My concern is, in the end, we may be funding 
contractors in Afghanistan once we take our troops out. But 
that is probably a separate question.
    Your report talks about the fact that we have spent about 
$800 million on women and girls in 18 years. There are a third 
of the girls now in school in Afghanistan, which wasn't the 
case before.
    There are 86 women in parliament. Ten thousand women are 
now doctors, medical professionals. The midwives have gone from 
400 to 4,000, so now 60 percent of the women in Afghanistan 
have a medical professional present when they deliver.
    But I fear that all of that is going to come to an end. A 
letter we just received from the Afghan women suggests that the 
Taliban has increased threats against NGO's, informing them in 
writing that no program can be run in which it involves women 
leaving the home.
    The Taliban has also required the removal of community 
development councils to which people's views and needs are 
represented.
    As a result of direct threats and attacks on those working 
in girls' education, hundreds of schools have been closed. 
Since the signing of the agreement in February 2020, civic 
leaders and their families have been targeted and murdered. Two 
women judges were killed on the way to work.
    So, it sounds like no matter what happens, women and girls 
are at grave risk. Can you speak more about that, please?
    Mr. Sopko. Of course.
    The issues and the numbers you raise are scary and it kind 
of tells you a little bit about the country we are in. Despite 
everything we have done, it is one of the worst places to be a 
woman in Afghanistan, particularly a rural--living in a rural 
environment.
    It is only in the cities where we have seen some real good 
improvement and we--and the Taliban have not indicated much 
that makes you feel comfortable that if they are in the 
government they are going to support women and girls.
    But the one thing to keep in mind is even the Afghan 
government, the current Afghan government, hasn't really done a 
lot. I mean, there just was an announcement--I don't know if 
you saw it, ma'am--that the Ministry of Education banned Afghan 
girls singing the national anthem with Afghan boys. No 
explanation. That came out of the blue. But that sort of tells 
you about a cultural divide between the views of many Afghans, 
including Afghans in the government.
    Ms. Speier. You know, for the longest time, Walter Jones 
was the only Republican that wanted to see us out of 
Afghanistan. But it is interesting to see Ranking Member Comer 
speak about the importance of getting out.
    I, obviously, have been interested in seeing us leave 
Afghanistan, but I have also come to believe that if we don't 
have ears on the ground, al-Qaeda will be able to blossom. 
Blossom is the wrong word. Will be able to grow again and we 
will be at grave risk.
    So, I have come to believe we need some, you know, boots on 
the ground to just protect ourselves and that that requires 
committing some money to Afghanistan. I am willing to do it.
    Would you comment on that and what your take is on what 
happens to us, in 28 seconds?
    Mr. Sopko. If there are no boots on the ground, we lose a 
leverage for all of these issues--women, girls, and all that. 
And if there is no oversight, you can just forget about any of 
that money that we appropriate for women and girls ending up 
helping women and girls. I agree totally with you, ma'am. We 
need it.
    Ms. Speier. My time has expired. I yield back.
    Mr. Lynch. The gentlewoman yields.
    The chair now recognizes the gentleman from Georgia. Mr. 
Johnson, for five minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. And, Mr. 
Sopko, thank you for being here today to speak about your 
report and the role that the United States must play in the 
reconstruction of Afghanistan.
    Though our goal is to remove U.S. civilian and military 
presence from Afghanistan, I do agree with Congresswoman Jackie 
Speier. I have evolved on that issue, and we cannot create a 
vacuum of power in the wake of our absence that would 
destabilize the region and our rebuilding efforts.
    This committee will play a crucial role in ensuring that 
U.S. tax dollars overseas, which currently number at more than 
a billion dollars, are being used effectively to assist in the 
pathway to democracy, a task that will be more difficult 
without a present on the ground.
    Mr. Sopko, in your 2021 High-Risk List, you write, quote, 
``A reduced U.S. civilian and military presence in Afghanistan, 
amid a deteriorating security environment, could create new 
challenges for conducting effective oversight of U.S.-funded 
programs, grants, and contracts for reconstruction work,'' end 
quote.
    Sir, can you briefly describe the role that the U.S. 
military plays in overseeing reconstruction work in 
Afghanistan, and also, how has COVID-19 created barriers to the 
performance of this important work?
    Mr. Sopko. The U.S. military delivers. Now, when we talk 
about reconstruction, it is not just building roads and paying 
for clinics and education. We are talking about the training 
and supporting the Afghan military and police.
    So, the military role there is important in doing the 
training and advising and then helping the Afghans actually use 
the weapons and use the material we give them. So, they play an 
important role.
    COVID has been detrimental to that because we don't want 
our soldiers to get hurt with COVID and a lot of them have come 
down. So, that has limited their capability getting out.
    Likewise, it has limited our ability, being SIGAR, as well 
as state and AID employees from getting out. So, COVID has been 
very detrimental, and also detrimental to the Afghan economy.
    Mr. Johnson of Georgia. Thank you.
    What partnerships in the region do we have that will play 
key roles in assisting our continued oversight of 
reconstruction if all U.S. troops should be withdrawn from 
Afghanistan, and how could we conduct oversight if the 
remaining troops currently on the ground are withdrawn?
    Mr. Sopko. It would be very difficult to keep conducting 
oversight although, you know, we can do it, we being the U.S. 
Government, if we have the support of security officials at the 
State Department regional security office.
    When you asked the question about regional governments 
helping us to do oversight, I would personally say none of them 
can help us. I don't think we want an Iranian inspector 
inspecting to see whether our funds are being performed, or a 
Pakistani inspector and definitely not a Russian inspector, or 
Chinese.
    So, if we can't--I, personally, as an inspector general 
would not recommend turning over our oversight function to 
either the Russians, the Iranians, the Pakistanis, or the 
Chinese.
    Mr. Johnson of Georgia. Yes. How are you planning to carry 
out your oversight responsibilities if U.S. forces do, 
ultimately, leave Afghanistan as planned on May 1?
    Mr. Sopko. It is going to be extremely difficult. We have 
reached out and have in the past utilized certain 
technologies--drone satellite technology. That helps a bit.
    We have also had a very strong relationship and done a lot 
of training with some Afghan civil society organizations, and 
they help us get out to places we are not permitted to go to.
    But we would probably continue doing that, but we would be 
seeking your help and the help of Congress to get additional 
security funding and security support from the U.S. State 
Department, which has regional security officers to help us if 
we need to get out.
    You need to get out there and kick the boots--get boots on 
the ground and kick the tires, and it is extremely difficult. 
The best we got is some Afghan civil society organizations we 
have trained and we monitor who have done that for us.
    Mr. Johnson of Georgia. Thank you. My time has expired and 
I yield back.
    Mr. Lynch. I thank the gentleman. The gentleman yields 
back.
    First of all, I want to thank all the members who 
participated in today's hearing. I realize that today is the 
travel day for Congress. That was not the case when we 
originally scheduled this hearing.
    I want to give great credit to Inspector General Sopko for 
his work and for the work of his staff. We really do appreciate 
you and the way you have handled this under very, very 
difficult circumstances.
    So, in closing, I want to thank our panelist.
    Mr. Grothman. I would like to say something.
    Mr. Lynch. It is a travel day so we are all running for 
flights.
    Mr. Grothman, if I go back to you, I am going to have to go 
back to every other member. You know what I mean?
    So, I want to thank our panelists for their remarks. I want 
to commend my colleagues for participating in this important 
conversation.
    Mr. Grothman. I am going to object.
    Mr. Lynch. Without objection, all members will have five 
legislative days within which to submit additional questions 
for the witnesses to the chair, which will be forwarded to the 
witnesses for their response, and I ask our witness to please 
respond as promptly as you are able.
    This hearing is adjourned and, again, I thank the gentleman 
for his attendance and for all his incredibly hard work. Thank 
you.
    This hearing is now adjourned.
    Mr. Grothman. Congressman Lynch?
    Mr. Lynch. Yes?
    Mr. Grothman. Can I just say something to you?
    Mr. Lynch. Oh, sure.
    Mr. Grothman. I was cutting you off.
    I didn't say--I did want to say something that was relative 
important and the reason I want to say it is I do believe that 
if the Biden administration stays, I will not be critical of 
them.
    OK. I certainly understand we have an obligation to our 
allies. We have an obligation to our friends in the Afghan 
government, and we don't want to strengthen our opponents.
    And I think it is an important thing for me to say. I wish 
I could have said it when the other people were listening 
because they think some Republicans were--you know, kind of 
trying to put Biden in a box there. But I wanted to make clear, 
as the ranking member of the subcommittee, that that was my 
opinion.
    Mr. Lynch. And I appreciate--I appreciate the spirit in 
which the gentleman makes those remarks and they are welcome. 
They are welcome, and I think the gentleman fully understands 
the difficulty of the administration. And we certainly 
appreciate the courtesy and the spirit in which the gentleman 
states his position.
    Thank you.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
